WAIVER

Supreme Court of the United States

No, 20-1060
Jose Oliva v. Mario Nivar, et al.
(Petitioner) (Respondents)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
O Please enter my appearance as Counsel of Record for all respondents.

W There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Mavio Gatdia

 

Tam a member of the Bar of the Supreme Court of the United States.

O Iam not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed/by’a Bar member.

    

Signature

Date: zl 1/23 2]

(Type or print) Name. Gabriel ae ‘Perer
aMr. OMs. O Mrs. O Miss

Ortega We blachan LZ Corr eae
Address__@09 My tl le Averwe. Sue ldo
City & State__ 2 / Bue _ Ix Zip £222/
Phone __ @/ © - SY2- /GGI
SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF

PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

 

Ce:

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.
